WAIVER core

Supreme Court of.the United States

No. 20-5352
Shawn Woodward v. Mohammed Ali, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
i Please enter my appearance as Counsel of Record for all respondents.

O There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

al am a member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member. .

Signature ake

 

 

 

 

Date: Aj i
(Type or print) Name. Kate H. Nepveu
OM, Ms. O Mrs. O Miss
Firm.
Address_The Capitol
City & State_Albany, New York Zip 12224

 

Phone _518-776-2016

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce:. Mr. Shawn Woodward
215 South Burlington Road
Bridgeton, NJ 08302

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
